September 2008
Report No. EVAL-08-005


Energy Efficiency of the FDIC’s Virginia
Square Facility and Information
Technology Data Center
Federal Deposit Insurance Corporation                                                           Office of Evaluations
3501 Fairfax Drive, Arlington, VA 22226                                                  Office of Inspector General




DATE:                                     September 24, 2008

MEMORANDUM TO:                            Arleas Upton Kea
                                          Director, Division of Administration

                                          Michael E. Bartell
                                          Chief Information Officer and
                                          Director, Division of Information Technology


                                          [Signed]
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for
                                          Evaluations and Management

SUBJECT:                                  Energy Efficiency of the FDIC’s Virginia Square Facility and
                                          Information Technology Data Center (Report No. EVAL-08-005)


This report presents the results of the subject evaluation. As outlined in our engagement letter,
our objective was to evaluate the Corporation’s efforts to conserve energy in its operations of the
Virginia Square facility, including the Student Residence Center and Information Technology
(IT) data center and identify opportunities to further conserve energy and/or reduce utility costs.
We engaged KPMG LLP (KPMG) to conduct this evaluation.

KPMG concluded that the FDIC has taken a number of actions to improve the energy efficiency
of the Virginia Square facility and IT data center and identified leading practices that the FDIC
has implemented that help reduce energy consumption and energy costs. KPMG identified
opportunities to further improve the FDIC’s energy management efforts and, in that regard, made
five recommendations. Please refer to slides 2-4 for the overall evaluation results and slide 5 for
a detailed discussion of the objective, scope, and approach.

KPMG has quantified the potential cost savings associated with several specific initiatives
associated with the Virginia Square facility. We expect that the FDIC can achieve and sustain
far greater savings over time by implementing the initiatives at all FDIC-owned buildings and by
establishing a more programmatic and corporate-wide approach to energy management, as
KPMG discusses in the report. However, implementing these initiatives will require additional
investments, which we have not attempted to quantify. Consequently, we are not claiming
monetary benefits resulting from the recommendations.

We presented a draft version of the report to your offices on August 6, 2008. The Division of
Information Technology chose not to provide comments. The Division of Administration
provided its response dated September 9, 2008, and concurred or partially concurred with the
recommendations and proposed responsive corrective actions. The response is included in
Appendix VIII.

If you have any questions concerning this evaluation, please contact me at (703) 562-6352 or
Marshall Gentry at (703) 562-6378.
Energy Efficiency of the FDIC’s Virginia Square
Facility and Information Technology Data Center




                                                  0
Contents


                                                                Slide Number
  Report Highlights                                                       2
  Objective, Scope, and Approach                                          5
  Approach Overview                                                       6
  Important Disclosures                                                   7
  Background                                                              8

  Status of the FDIC’s Energy Management Efforts                          9
  “Green” Adoption Approach                                              10
  Potential Qualitative Improvements                                     11

  Potential Quantifiable Improvements                                    12
  Factors Necessary for Change Realization                               13
  The Way Ahead                                                          14

  Corporation Comments and OIG Evaluation                                15
  Appendixes
         Appendix I – KPMG’s Strategy Framework                          16
         Appendix II – Roadmap                                           17
         Appendix III – Federal Agency Benchmarks                        21
         Appendix IV – Utility Procurement Analysis                      23
         Appendix V – Federal and Industry Guidance                      25
         Appendix VI – Glossary                                          27
         Appendix VII – Bibliography                                     30
         Appendix VIII – Corporation Comments                            33
         Appendix IX – Management Response to Recommendations            35
                                                                               1
    Report Highlights


                                  • The FDIC has taken a number of actions to improve energy efficiency of the
                                    Virginia Square (VASQ) facility and information technology (IT) data center.
                                    KPMG identified leading practices that the FDIC has implemented that help to
                                    reduce energy consumption, energy costs, and greenhouse gas emissions.

                                  • KPMG identified qualitative and quantitative opportunities to further improve
                                    the FDIC’s energy management and sustainability1 efforts. We are making
                                    five recommendations in this regard:

                                         – Recommendations with Qualitative Benefits: The FDIC could benefit
                                           from developing a sustainability program to coordinate and measure
                                           progress made on the various energy management initiatives. KPMG
                                           identified other potential actions such as installing sub-metering and an
                                           energy management system that could help the Corporation more
                                           effectively monitor energy usage and identify areas for further review
                                           and potential cost savings.




1
  The concept of sustainability encompasses ideas, aspirations, and values that continue to inspire public and private
organizations to become better stewards of the environment and that promote positive economic growth and social objectives.
The principles of sustainability can stimulate technological innovation, advance competitiveness, and improve our quality of
life. (Source: Environmental Protection Agency)
                                                                                                                               2
Report Highlights


                      – Recommendations with Quantifiable Benefits: KPMG also identified
                        improvements with estimated cost savings of $145,667 or about 5.6%
                        of the FDIC’s annual VASQ energy costs—not considering
                        implementation costs. Potential savings for future years could be
                        significantly greater as Dominion Virginia Power has petitioned the
                        Virginia State Corporation Commission (VSCC) for a 31% increase in
                        peak electrical rates for commercial customers. VSCC recently
                        approved an 18% increase for residential customers effective July 1,
                        2008.


                • These quantifiable initiatives equate to total potential electric savings of
                  3,772 megawatt hours (mWh) annually, which translates to 3,233 tons of
                  CO2 reductions. These reductions are equivalent to:


                      ¾ Taking 537 cars off the road for one year
                      ¾ Saving 667 pine forested acres




                                                                                                 3
Report Highlights


• The FDIC negotiated favorable electrical rates by leveraging a U.S. Government Services
  Administration (GSA) master contract with Dominion Virginia Power. KPMG determined there are
  no utility-provided incentives presently available to the VASQ facility, but Virginia is considering
  them for adoption some time in the future. Utility incentives may be available in other states to
  offset capital expenditures associated with reducing energy consumption at other FDIC-owned
  facilities. (See Appendix IV for details regarding KPMG’s analysis of the FDIC’s utility
  procurements.)

• This report presents estimated savings for the VASQ facility only, which is a relatively new facility.
  Pursuing similar improvements, where practicable and appropriate, at other, older FDIC-owned
  facilities could result in far greater savings.




                                                                                                           4
Objective, Scope, and Approach

• Engagement objectives were to (1) review the Corporation’s efforts to conserve energy in its
  operation of the VASQ facility, including the Student Residence Center (SRC) and IT data center,
  and (2) identify opportunities to further conserve energy and/or reduce utilities cost.

• Through our interviews and tours, we worked with FDIC leadership and staff to refine the
  engagement objective, the desired outcomes, and intended benefits that could result from the
  assessment.

• Key considerations included:
       ¾ The FDIC’s stated objective of obtaining a LEED Silver Rating1 for the VASQ campus
       ¾ Identifying potential areas of cost savings while maintaining a high level of customer
         satisfaction
       ¾ Providing insights for a programmatic approach to environmental management
       ¾ Assessing the FDIC’s energy management efforts against federal and industry guidance
       ¾ Assessing operations and maintenance activities and approaches

• We conducted our work from April 2008 through July 2008 in accordance with the Quality
  Standards for Inspections.


1 Leadership in Energy and Environmental Design (LEED®) Rating System – U.S. Green Building Council (USGBC) provides a rating system (Existing Buildings)
focused on helping building owners and operators measure operations, improvements, and maintenance on a consistent scale, with the goal of maximizing
operational efficiency while minimizing environmental impacts. Source: http://www.usgbc.org/DisplayPage.aspx?CMSPageID=221, Appendix III, Federal Agency
Benchmarks, provides a list of comparable Federal buildings that have achieved LEED certification.

                                                                                                                                                            5
  Approach Overview

  In conducting our work, we evaluated the FDIC’s energy management efforts against four key drivers.

                                            Key Drivers
       Refined
                                             Reduce Consumption
     Engagement
      Objective                                                                    Output

                                                 Reduce Cost
  “Reduce energy and water
                                                                                Roadmap containing
     consumption while
                                                                                actionable items and
   maintaining or improving
                                                                               recommendations for
   customer service at the                                                  programmatic improvements
       VASQ Facility”                            Measure and
                                                 Communicate




                                           Stewardship and Alignment


                                                                                                        6
See Appendix I for additional discussion of KPMG’s evaluation approach.
Important Disclosures

• Various factors and conditions will impact the FDIC’s realization of savings, and they may differ
  from those achieved by other entities that have undergone similar energy management evaluations.


• KPMG utilized consumption and “Savings Calculators” principally from the Federal Energy
  Management Program (FEMP), EPA ENERGY STAR and WaterSense, Department of Energy, and
  other industry sources.


• KPMG obtained estimates using recommended values from the “Savings Calculators” to calculate
  potential savings. For calculations not covered under FEMP, KPMG used lower estimates from
  industry studies. To be conservative, KPMG has reported the “low” estimate throughout this report.


• KPMG relied upon an inventory of electrical devices provided by the Division of Information
  Technology (DIT) and the Division of Administration (DOA). KPMG did not validate the accuracy of
  the inventory.




                                                                                                       7
Background

             •   The President signed Executive Order 13423, Strengthening Federal
                 Environmental, Energy, and Transportation Management, in January 2007 to
                 improve Federal agencies’ energy efficiency and to reduce greenhouse gas
                 emissions. Appendix V provides additional details on Executive Order 13423.
             •   Like other Federal agencies, the FDIC impacts national greenhouse gas emissions
                 through energy demand and consumption.
             •   Over the 15-month period from January 2007 to March 2008, the FDIC procured
                 the following utility services for the VASQ facility.


                       Type of Utility              Amount                     Cost
                          Service
                    Electricity              40,361,160                          $2,130,084
                                             kilowatt-hours (kWh)
                    Natural Gas              689,624 British                       $948,420
                                             Thermal Units (BTU)
                    Water and Sewer          39,469,000 gallons                    $234,579
                    Services

             •   The FDIC’s Virginia Square campus was constructed in two phases, during 1989-
                 1991 and 2003-2006. The campus consists of an office building with office space
                 and training facilities for FDIC employees, which houses the IT Data Center, and
                 an SRC for students and instructors attending classes.
             •   The FDIC also owns older buildings in Washington, D.C., and San Francisco,
                 California.
                                                                                                    8
Status of the FDIC’s Energy Management Efforts

                • As an independent government agency, the FDIC is not required to
                  implement the guidelines as mandated in EO 13423 Strengthening
                  Federal Environmental, Energy, and Transportation Management;
                  however, the Corporation is taking strides to make improvements in line
                  with EO 13423 and to act as environmentally responsible government
                  stewards by:
                     – Undertaking the pursuit of LEED Silver Certification
                     – Installing a “green roof” to reduce the heat island effect of
                        buildings
                     – Virtualizing 628 servers and replacing 99% of its CRT monitors
                        with LCD monitors
                     – Recycling rain water to irrigate VASQ lawn and plants
                     – Upgrading the HVAC system with variable speed drives
                     – Participating in a survey and hiring a contractor to evaluate the
                        efficiency of certain aspects of IT operations
                     – Tasking an Action Learning Team as part of the Senior Executive
                        Leadership Core program to develop a business case for
                        “Greening the FDIC”

                • While the FDIC has many discrete, environmentally friendly projects,
                  the Corporation could benefit from pursuing a more programmatic
                  approach to energy management and sustainability.

                                                                                            9
“Green” Adoption Approach

KPMG’s approach evaluated the FDIC’s activities against the growth and maturity framework shown
below.
                                                                                   Corporate Investment
                                                                                   Adopt emerging technologies &
                                          Enhancing                                approaches
 Maintaining                              Overlay “Green” onto new solutions
 Embed energy optimization                                                          Play a supporting role in
 into operations                                                                       corporate energy management
                                                                                       efforts
  Adopt leading practices associated      Drive more efficient equipment            Provide recommendations &
     with reducing consumption of             into the environment                     participate on further
     energy / water and creation of          Increase usage of energy design          improving the FDIC’s green
     waste                                    criteria for new infrastructure          profile, examples:
    Continually review costs                 solutions                                       ¾Securing alternate
     associated with energy, water and       Establish key performance                        energy channels
     facility management to reduce            measurements associated with                    ¾Investments in solar &
     price points                             “going green”                                    co-generation
    Identify available incentives and       Increase participation in industry      Develop risk management
     other financial offsets                  bodies (e.g., Integrated Energy          plans for changes in federal
     (government, supply side,                Management Working Group)                guidance, federal acquisition
     vendors, etc.)                          Implement enterprise Energy              policy, or other adverse event
    Use existing optimization                Management Systems
     programs as a channel to
     improve “greeness” – technology
     refresh, server virtualization,
     enterprise architecture and others




KPMG concluded that the FDIC is performing a mix of Maintaining and Enhancing activities.

                                                                                                                        10
  Potential Qualitative Improvements

The table below presents the potential actions we identified with the most significant qualitative benefits.
                                                         Leading Practice
Developing a formal Sustainability Program to include:
• Engagement and support from the senior-most levels of the Corporation.
• Sufficient personnel to manage the program and to integrate divisional energy management and sustainability efforts.
• Energy, water, waste, and emission management plans linked to future "Green" initiatives and short-, medium- and long-term
   actions.
• Policies and procedures for selecting green initiatives for consideration and for implementing the sustainability program.
• Program baselines, key performance indicators, and evaluation approaches for measuring progress.
Adopting electricity, gas, and water metering (sub-metering).
Installing an energy management system (Operations, Maintenance, and Measurement of Benefits).
Increasing employee awareness by establishing internal & external communications of current green practices and strategy.
Connecting collected rain water and storm water to a gray water system.
Adopting WaterSense cost reduction techniques (purchasing non-potable vs. potable water).
Revising procurement policy to only acquire EPEAT or ENERGY STAR-rated equipment such as fax machines, copiers, laser printers,
water coolers, food dispensers, clothes washers, commercial dishwashers, vending machines, commercial ice machines, community
refrigerators and SRC refrigerators.
Expanding Virtualization of Windows Servers (Vmotion).
Continuing pursuit of a “lights out” data center.
Continuing to explore space consolidation in the IT data center.
Continuing efforts to seal and permanently close exterior windows in the SRC to conserve energy, regulate building pressurization and
humidity issues, and prevent instances of mold.

                                                                                                                                        11
 For a complete listing of potential actions, please see the detailed Roadmap provided as Appendix II.
Potential Quantifiable Improvements

The following table presents the potential actions with the most significant quantifiable benefits that the FDIC
should consider. However, cost of implementation and the associated payback period should be considered
before initiating these actions.
                                                Leading Practice                                                 Annual Savings   Division
 Continuing to activate sleep mode functionality for PCs.                                                           $ 24,754        DIT

 Continuing investigation of temperature increase for the IT data center.                                           $ 10,638        DIT

 Exploring focused cold air ducting under raised floor and hot air ducting in the ceiling as a return vent for      $ 13,297       DOA
 hot aisle / cold aisle efficiency.

 Replacing Exit Signs with photo luminescent ability per fire marshal and code / compliance guidance.               $ 12,531       DOA


 Replacing T12 lights in SRC, A, & B Buildings w/ T8 lights (est. 10,500 tubes)—includes the IT data                $ 15,750       DOA
 center.
 Procuring only EPEAT or ENERGY STAR-rated equipment (FAX, Laser Printers and Copiers).                             $21,891         DIT

 Procuring ENERGY STAR-rated devices: includes Water Coolers, Food Holding, Clothes Washers,                        $ 5,307        DOA
 Commercial Dishwashers, Vending Machines, Commercial Ice Machines, Commercial Refrigerators and
 Residential Refrigerators.

 Retrofitting low-flow WasterSense faucets and shower heads.                                                        $ 30,561       DOA

 Retrofitting toilets from 3.5 gallons per flush (gpf) to 1.6 gpf.                                                  $ 7,950        DOA

 Retrofitting waterless urinals throughout the VASQ facility.                                                       $ 2,988        DOA

                                                                                                       TOTAL       $145,667




For a complete listing of potential actions, please see the detailed Roadmap provided as Appendix II.
                                                                                                                                             12
Factors Necessary for Change Realization

                Senior-Level Management Sponsorship
                • Currently, most “Green” initiatives are being driven independently
                  within divisions. For the FDIC to continue moving forward
                  synergistically, senior-level management sponsorship will be required.
                Program, Policy & Procedure Standardization
                • Past corporate efforts and the current state have identified a need for
                  strategic awareness, corporate-wide planning, documentation, and
                  guidance that provides for a programmatic approach that both mitigates
                  constraints and enables performance improvement opportunities.
                  Measurable goals should be identified to enable the FDIC to move
                  beyond awareness and realize strategically-planned objectives.
                Organizational Cooperation Across Multiple Verticals
                • Real savings will require adopting a total lifecycle governance model –
                  from facilities operations, space management, acquisition services, and
                  IT infrastructure services. These organizations impact electricity, gas,
                  and water requirements and consumption.
                Asset and Operational Management (Continuous Monitor)
                • Current-state capability could be improved to track assets and the
                  facility appliance inventory at an itemized level. Without a complete
                  inventory, intelligent management and monitoring of utility requirements
                  and consumption is difficult due to the lack of sub-metering and other
                  operational and communication challenges.


                                                                                             13
The Way Ahead

We recommend that the Director, Division of Administration:

1. Develop a formal Sustainability Program to include:
     • Senior-level management commitment and sponsorship in support of energy management and
         sustainability initiatives. DOA, in consultation with DIT, should also consider establishing an
         interdivisional performance metric, such as a Corporate Performance Objective, related to sustainability.
     • Sufficient personnel to manage the program and to integrate divisional energy management efforts.
     • Energy, water, waste, and emission management plans linked to future “green" initiatives and short-,
         medium- and long-term actions.
     • Policies and procedures for selecting green initiatives for consideration, procuring energy-efficient
         products, and for implementing the sustainability program.
     • Program baselines, key performance indicators, and evaluation approaches for measuring progress.

2. Improve the facilities infrastructure for monitoring energy management and sustainability efforts by
     • Installing or upgrading building energy management systems.
     • Installing sub-metering capabilities to monitor specific uses of energy.

3. Develop a communication strategy and campaign to increase employee awareness and acceptance of energy
   savings initiatives and efforts.

4. Assemble a team or assign resources to further study potential energy management improvements discussed
   on slides 11 and 12 of this report.

5. Evaluate energy management initiatives discussed in this report for applicability and consideration at other
   FDIC-owned and leased facilities.
                                                                                                                     14
Corporation Comments and OIG Evaluation

• On August 6, 2008, we provided a draft of this report to FDIC management for review and
  comment.

• DIT chose not to provide comments.

• DOA provided a written response, dated September 9, 2008. DOA’s response is presented in its
  entirety in Appendix VIII on slides 33 and 34. DOA concurred or partially concurred with all five of
  our recommendations.

• DOA’s actions are responsive to the recommendations. Appendix IX on slides 35 and 36 contains
  a summary of management’s responses to the recommendations.




                                                                                                         15
    Appendix I: KPMG’s Strategy Framework




                                        FDIC Evaluation Objective: Reduce energy and water
Evaluation
                                        consumption while maintaining or improving customer
Objective
                                        service at the VASQ Facility



  Key                                                                                                             4.0.0
                 1.0.0 Reduce                 2.0.0 Reduce Cost                     3.0.0 Measure
Drivers/                                                                                                       Stewardship
                 Consumption          (Includes any 3rd Party Contracts)           & Communicate
Issues                                                                                                         & Alignment




               1.1.0        1.2.0                                   2.3.0          3.1.0                                 4.2.0
                                       2.1.0        2.2.0                                       3.2.0        4.1.0
Aspects
              Energy        Water                              Federal, State &   Monitor                   Develop
                                                                                                                       Situational
of Issue                              Energy      Water Cost                                 Communi-                 Aware-ness
             Consump-     Consump-                               Local Utility      &                       Program
                                     Cost Mgmt      Mgmt                                    cate Strategy             of the FDIC
               tion         tion                                  Incentives      Report




   Note: Each box on the Strategy Framework corresponds to actions listed on the Roadmap in Appendix II.

                                                                                                                                     16
Appendix II: Roadmap

 Roadmap (Virginia Square                                                                                                        FDIC Performing =
                                                                                                                                 greater than 75%
 ONLY)                                                                                                                           c omplete and/or less
 Data Capture                                                                                                                    than $4K savings
                                                                                                                                 opportunity
                                                                                                                                 Initial <50%    z        FDIC Performing         

                                                                                                                                 In process 50%-75% zz Savings enabler                $

                                                                                                                                 Complete >75%       zzz Process enabler
                              Recomme
                               ndation
  Key Driver       Issue        Area                                         Specific Action                                      Status/Complete             IT         Facilities

                                                                                                                                                          Opportuni
                                                                                                                                                           ty Sub   Opportunity
                                                                                                                                                            Total    Sub Total
                  Energy      Adopt IT,
                Consumption      Data       Removing unused Windows and Unix Servers                                                       zzz                
                               Center &     Consolidating Servers through Virtualization                                                   zzz                
                                Fac ility   Inc orporating CPU power stepping                                                              zzz                
                              Operations    Migrating CRT monitors to LCD                                                                  zzz                
                               Leading      Performing Applic ation Rationalization                                                        zzz                
                              Prac tic es   Evaluating EOSL replac ement to inc orporate energy effic ient equipment                       zzz                
                                            Conduc ting batc h proc essing at night (exploring near real-time proc essing)                 zzz                
                                            Defining energy effic ient enterprise target arc hitec ture                                    zzz                
                                            Centralizing printers/c opiers                                                                 zzz                
                                            Performing c omputer rac k c ooling study for VASQ                                             zz                 
                                            Installing more effic ient power supplies                                                       z                 
                                            Grouping hardware to dissipate heat signature                                                  zz                 
                                            Expanding Virtualization of Windows Servers (VMotion)                                          zz                 $
                                            Continuing pursuit of lights out data c enter                                                  zz                 $
   Reduce                                   Continuing to explore spac e c onsolidation in data c enter                                     z                 $
 Consumption                                Continuing enhanc ing c omputers in sleep mode                                                 zzz              24,754
                                            Continuing investigation of temperature inc rease for data c enter                             zz               10,638
                                            Exploring AC/DC c onversion for direc t DC power to hardware                                   zzz                              
                                            Enhanc ing system provision proc ess and proc edures to incorporate green elements             zzz                              
                                            Installing rac k blanks in c omputer c abinets                                                 zz                 $              $
                                            Monitoring and rightsizing c omputer room AC units to optimize c apac ity                      zzz                               
                                            Implementing hot aisle/c old aisle                                                             zzz                               
                                            Exploring UPS upgrades                                                                         zzz                               
                                            Reduc ing distanc e from CRAC units to high heat/load intensive areas                          zzz                               
                                            Performing air pressure optimization of air in transit                                         zz                                
                                            Exploring single I to phase III power                                                          zzz                               
                                            Installing motion detec tion switc hes for turning lights off in VASQ                          zz                                
                                            Rebalanc ing air handling system after significant IT rec onfigurations                        zz                                
                                            Improving c ooling towers' effic ienc y                                                        zzz                               
                                            Installing double doors into the data c enter                                                   z                                $
                                            Optimizing the chilled water to rec ommended spec ific ations                                  zz

                                                                                                                                                                                          17
 Appendix II: Roadmap (continued)

Roadmap (Virginia Square ONLY)                                                                                                        FDIC Performing =
Data Capture                                                                                                                          greater than 75%
                                                                                                                                      c omplete and/or less
                                                                                                                                      than $4K savings
                                                                                                                                      opportunity

                                                                                                                                      Initial <50%        z          FDIC Performing              

                                                                                                                                      In process 50%-75% zz          Savings enabler              $

                                                                                                                                      Complete >75%           zzz    Process enabler

                                Recommendation
 Key Driver       Issue              Area                                           Specific Action                                     Status/Complete                  IT             Facilities

                                                                                                                                                                    Opportunity        Opportunity
                                                                                                                                                                     Sub Total          Sub Total
                Energy          Adopt IT, DC & Facility Exploring foc used c old air duc ting under raised floor, sealing floor and
              Consumption       Operations Leading      hot air duc ting in the c eiling as return vent for hot aisle/c old aisle                    z                                   13,297
                                Practices               effic ienc y
                                                        Replac ing exit signs with photo luminesc ent per fire marshal and c ode /
                                                                                                                                                     z                                   12,531
                                                        c omplianc e guidanc e
                                                        Exploring the c losure of SRC windows to better enable positive pressure                     z                                      $
                                                      Replac ing T12 lights in SRC, A, & B Buildings w/ T8 lights (est. 10,500
                                                                                                                                                     z                                   15,750
                                                      tubes) - inc ludes Data Center
                                                      Exploring ac quisition and replac ement of c urrent Student Resident
                                                      Center AC units with pac kaged terminal air c onditioner (PTAC) units                          z                                      $
                                                      (ASHRAE 90.1- 2001 & Arlington Code / Complianc e)
                                                      Exploring ac quisition of desic c ant dehumidifiers for SRC and A & B
                                                                                                                                                     z                                      $
                                                      building (ac tive & passive models)
                                                      Proc uring only EPEAT or Energy Star rated equipment (FAX, Laser
                                                                                                                                                     z                                   21,891
                                                      Printers and Copiers)
                                                      Improving and upgrading HVAC system with variable speed drives                             zzz                                        
  Reduce                                              Proc uring Energy Star Rated devic es: inc ludes (Water Coolers, Food
Consumption                                           Holding, Clothes Washer, Commerc ial Dishwashers, Vending Mac hines,
                                                                                                                                                     z                                    5,307
                                                      Commerc ial Ic e Mac hines, Commerc ial Refrigerators. and Residential
                                                      Refrigerators.)
                   Sub Total                                                                                                                                          35,392             68,776
                 Water       Adopt IT, DC &
              Consumption Fac ility Operations        Repairing of sweating and leaking pipes                                                    zzz                                        
                             Leading Prac tic es      Rec yc ling water (gray water and proc essing rec yc ling systems),
                                                                                                                                                     zz                                     
                                                      c urrently 50% non- potable use
                                                      Connec ting c ollec ted rain water and storm water to gray water
                                                      system; LEED c redit 5.1 @ 25% usage, additional c redit 5.2 @ 50%                             z                                      $
                                                      usage
                                                      Exploring use of non- potable water in c ooling tower                                          z                                      $
                                                      Exploring WaterSense c onservation measures and management                                     z
                                                      Retrofitting low- flow WasterSense fauc ets and shower heads                                   z                                   30,561
                                                      Retrofitting toilets from 3.5 gallons per flush (gpf) to 1.6gpf                                z                                   7,950
                                                      Retrofitting waterless urinals throughout FDIC VASQ                                            z                                    2,988
                                                      Reviewing c ontrac t for landsc ape and irrigation (WaterSense
                                                                                                                                                     z
                                                      qualific ation requirement)
                    Sub Total                                                                                                                                                            41,499


                                                                                                                                                                                                      18
Appendix II: Roadmap (continued)

Roadmap (Virginia Square ONLY)                                                                                       FDIC Performing =
                                                                                                                     greater than 75%
Data Capture                                                                                                         c omplete and/or less
                                                                                                                     than $4K savings
                                                                                                                     opportunity
                                                                                                                     Initial <50%        z          FDIC Performing             

                                                                                                                     In process 50%-75% zz          Savings enabler             $

                                                                                                                     Complete >75%           zzz    Process enabler

                                 Recommendatio
  Key Driver       Issue             n Area                                 Specific Action                            Status/Complete                  IT             Facilities

                                                                                                                                                   Opportunity        Opportunity
                                                                                                                                                    Sub Total          Sub Total
                Energy Cost      Optimize Rates
                                 and Proc edures     Volunteering to be inc luded in energy load researc h                          z
                                                     Analyzing data from automated meter reading equipment
                                                                                                                                    z
                                                     and load researc h
                                                     Purc hasing elec tric ity measurement equipment and systems                    z                                      $
                                                     Evaluating business c ases for modern energy management
                                                     c ontrols (T hermal Comfort Monitoring, System- Level                          z
                                                     Metering, Building Automation System)
                                                     Selling elec tric ity to utility using new and/or existing
                                                                                                                                    z                                      
                                                     generation
 Reduce Cost
                   Sub T otal                                                                                                                                              0
                Water Cost    Optimize Rates
                              and Proc edures        Adopting WaterSense c ost- reduc tion tec hniques
                                                                                                                                    z
                                                     (purc hasing non- potable vs. potable)
                                                                                                                                    z
                    Sub T otal                                                                                                                                             0
               Federal, State    Optimize Federal
                  & Local,       T ax Inc entives    N/A - FDIC is not eligible for existing Federal inc ome tax
                   Utility                           inc entives for renewables
                Incentives
                    Sub T otal                                                                                                                                        Qualitative
               Monitoring. &     Establish           Establishing a self- reporting program                                          z
                 Reporting       Monitoring and      Establishing a baseline and c ontinuous monitoring                              z
                                 Reporting Program   Establishing and adopting Key Performanc e Indic ators                          z
                                                     Adopting elec tric ity metering (sub- metering)                                zz
                                                     Defining operational- level measurement methods and
                                                                                                                                    z
                                                     tec hniques
                                                     Monitoring energy c onsumption of all IT hardware                              zz

                    Sub T otal                                                                                                                      Qualitative       Qualitative
  Measure &    Communicati Establish a
 Communicate    on Strategy    Communic ation        Establishing internal & external c ommunic ation of c urrent
                               Program                                                                                              z
                                                     green prac tic es and strategy
                                                     Inc reasing leadership & c ollaboration with government,
                                                                                                                                    z
                                                     guiding organizations, and industry
                                                     Providing training and insight to manage and reduc e c osts
                                                                                                                                    z
                                                     without driving up c apital investment budgets
                                                     Providing information and training that informs shareholders,
                                                                                                                                    z
                                                     stakeholders, and c ontrac tors
                                                     Inc reasing awareness of telec ommuting and bike rac ks                    zzz                                      
                    Sub T otal                                                                                                                      Qualitative       Qualitative


                                                                                                                                                                                    19
Appendix II: Roadmap (continued)

Roadmap (Virginia Square                                                                                                    FDIC Performing =
                                                                                                                            greater than 75%
ONLY)                                                                                                                       c omplete and/or less
Data Capture                                                                                                                than $4K savings
                                                                                                                            opportunity
                                                                                                                            Initial <50%       z             FDIC Performing                

                                                                                                                            In process 50%-75% zz             Savings enabler               $

                                                                                                                            Complete >75%          zzz       Process enabler

                                Recommendatio
  Key Driver       Issue            n Area                                  Specific Action                                   Status/Complete                  IT                Facilities
                                                                                                                                                         Opportunity Sub        Opportunity
                                                                                                                                                             Total               Sub Total
                Develop         Change
                Program         Management      Adopting an entity- level strategic framework                                              z
                                                Developing energy, water, waste, emission management plans
                                                                                                                                           z
                                                linked to any future "Green" initiatives
                                                Developing standard projec t selec tion c riteria for "Green" initiatives                  z

                                                Developing c ontinuous improvement programs with goals                                     z
                                                Monitoring and integrating energy pric e trends                                            z
                                                Monitoring and integrating regulatory trends (taxation, c aps,
                                                                                                                                           z
                                                inc entives or c ontrac t vehic les)
                                                Monitoring c ustomer and soc ial preferenc e trends                                        z
                                                Adopting and integrating Whole Building Operations/Maintenanc e
                                                                                                                                           z
                                                and LEED leading prac tic es:
                                                      Protec ting natural habitat, waterways, and water supply
                                                                                                                                       zzz                                              
                                                      from pollutants c arried by building disc harge water
                                                      Reduc ing the heat island of roof (Green Roof) 50% or more
                                                                                                                                       zzz                                              
                                                      required for LEED c ertific ation and points
Stewardship &                                         Inc orporating public transportation proximity in planning                       zzz                                              
Alignment                                             Establishing "Green" c leaning polic y and program                               zzz                                              
                                                      Rec yc ling and reuse of materials - re-sell all equipment
                                                                                                                                       zzz                                              
                                                      (exc ept hard drives)
                                                      Capital investments designed for energy effic ienc ies (e.g.,
                                                                                                                                       zzz                                              
                                                      SRC re-fac ing)
                                                     Developing and inc orporating a sustainable purc hasing polic y                       z

                                                     Creating a Resourc e Effic ienc y Manager position or
                                                                                                                                       zzz                                              
                                                     assignment of tasks (1 FTE position)
                                                     Transforming from reac tive/preventive to
                                                     predic tive/reliability-c entered maintenanc e management                         zz
                                                     strategy
                     Sub Total                                                                                                                               Qualitative            Qualitative
                Situational    Monitor
                Awareness      Government       Evaluating trends, roadmap, and adjustment of strategy                                     z
                of FDIC        Guidanc e        Developing polic ies that address applic ability and c omplianc e with
                                                                                                                                           z
                                                sustainability
                                                Developing a c hange management training program                                           z
                    Sub Total                                                                                                                                                       Qualitative

                  Grand-
                                                                                                                                                         $       35,392         $     110,275
                   Total
                                                                                                                                                                                                  20
 Appendix III: Federal Agency Benchmarks

KPMG selected the following Federal buildings as examples of Federal buildings achieving LEED
certification in the Washington, DC metro area.

      Federal Building Projects Registered for LEED® Certification Partial Listing                                    Updated: 31 Mar 08

      Agency                                 Project Name                       City           State    System Ver.    Gross SF Reg. Date
      Dept of Agriculture with General       USDA Headquarters                  Washington      DC      LEED NC   2    2,000,000   8-Nov-01
      Services Adminis tration               Modernization: South
      Dept of Commerce with General          Hoover Building Modernization      Washington      DC      LEED NC 2.1    1,767,671 28-Oct-05
      Services Adminis tration

      General Services Administration        GSA 1800 F                         Washington      DC      LEED NC 2.1     855,664 15-Aug-05

      General Services Administration        Federal Office Building No. 8      Washington      DC      LEED NC 2.1     550,000 19-Oct-05
      General Services Administration        Building Manager                   Washington      DC      LEED EB  2      460,000 3-Jul-07

      General Services Administration        Lafayette Building Modernization Washington        DC      LEED NC 2.1     320,202 28-Oct-05
      Smithsonian – National Museum of       NMNH HVAC Renov.,SW Main         Washington        DC      LEED CI  2       14,500 23-Feb-07
      Natural History                        Bldg, 3rd Flr
                                             GSA-WPD 1099 14th St- 4th
      General Services Administration        floor                            Washington        DC      LEED CI   2       6,500    9-Jan-07

      Dept of Defens e – Army                Belvoir New Vision                 Fort Belvoir    VA      LEED ND   1   11,000,000 28-Jun-07
                                             Fort Belvoir Military Family
      Dept of Defens e – Army                Housing                            Fort Belvoir    VA      LEED ND   1    4,269,000 30-May-07
                                             New Richmond U.S.
      General Services Administration        Courthous e                        Richmond        VA      LEED NC 2.1     345,990 21-Jun-04
      Environmental Protection Agency with   One Potomac Yard                   Arlington       VA      LEED EB  2      329,644 9-Aug-07
      General Services Administration
                                             Pentagon Library and
      Dept of Defens e – Pentagon            Conference Center                  Arlington       VA      LEED NC 2.1     115,000 17-Aug-04




   NC = New Construction             EB = Existing Building                 CI = Commercial Interiors        ND = Neighborhood Development    21
Appendix III: Federal Agency Benchmarks (continued)


• As of March 6, 2008, 82 federal buildings had been certified under the U.S. Green Building Council
  LEED rating system.

• As of March 12, 2008, 175 federal buildings had been labeled with ENERGY STAR.



Energy Star Benchmarks
                                                                                                                                             Label
 Agency                     Facility Name               Facility Type         Facility Owner     Property Manager     Location               Year(s)

 Dept of Veterans Affairs   Hunter Holmes McGuire       Hospital (Acute       Department of      Hunter Holmes        1201 Broadrock Blvd    2002,
                            VA Medical Center           Care or Children's)   Veterans Affairs   McGuire VA Medical   Richmond, VA 23249     2005
                                                                                                 Center
 Dept of Commerce           USPTO Headquarters          Office                LCOR               LCOR Incorporated    600 Dulany Street      2007
                                                                              Incorporated                            Alexandria, VA 22304
 General Services           Walter E. Hoffman           Courthouse            General Services                        600 Granby Street      2007
 Administration             Courthouse                                        Administration                          Norfolk, VA 23510
 General Services           Richmond Federal Building   Office                General Services   General Services     400 N. 8th St          2007
 Administration                                                               Administration     Administration       Richmond, VA 23219
 General Services           Norfolk Federal Building    Office                General Services   General Services     200 Granby Street      2007
 Administration                                                               Administration     Administration       Norfolk , VA 23510
 General Services           600 E Street, NW            Office                6th & E            S.C. Herman &        Washington, DC         2004
 Administration                                                               Associates         Associates, Inc.     20004



                                                                                                                                                       22
Appendix IV: Utility Procurement Analysis

• FDIC is buying:
     – Electricity from a recently re-regulated market with no available option other than
        the GSA-negotiated rates it procures today.
     – Natural gas from a marketplace that allows customers to acquire their own gas
        supplies at competitive prices.
     – Water and sewer services from a municipal supplier regulated primarily by
        decisions of county government.
• Over a 15-month period from January 2007 to March 2008, the FDIC procured the
  following utility services:
     – Electricity $2,130,084
     – Natural gas $948,420
     – Water and sewer services $234,579
• The existing electrical rates offer peak and off-peak prices, allowing the FDIC to buy
  off-peak electricity (timing varies between “winter” & “summer”) at a considerable
  savings:
     – On-peak direct costs $0.073 / kWh
     – Off-peak direct costs $0.024 / kWh
     – Weighted Average cost $0.053 / kWh
                                                                                             23
Appendix IV: Utility Procurement Analysis (continued)

• Natural Gas
     – The FDIC procures natural gas for heating at lower rates as the FDIC agreed to
       curtail natural gas usage during peak demand and use heating oil instead. The
       flexibility to use either fuel results in cost savings to the FDIC.
     – In August 2007, the FDIC switched suppliers from an affiliate of Washington Gas
       to Pepco Energy Services. While seasonal differences in market prices may be
       partially responsible, the end result is a small reduction in price ($1.32 to $1.25
       per therm).
• Alternatives to Existing Supply of Electricity--No economically feasible alternatives are
  currently available.
     – Lower standby generation and interruptible rates are available, but existing diesel generators
       are more costly to operate than on-peak electric rates.
     – Alternative technologies such as solar photovoltaic cells on the roof or flywheel storage
       technology in the basement are not currently cost effective.
• No utility-provided incentives are presently available, but Virginia is considering them.




                                                                                                        24
Appendix V: Federal and Industry Guidance

Although not binding on the FDIC, Executive Order 13423, Strengthening Federal Environmental,
Energy, and Transportation Management, requires most Federal agencies to lead by example in
advancing the nation’s energy security and environmental performance by achieving these goals:

VEHICLES: Increase purchase of alternative fuel, hybrid, and plug-in hybrid electric vehicles when
commercially available.

PETROLEUM CONSERVATION: Reduce petroleum consumption in fleet vehicles by 2% annually
through 2015.

ALTERNATIVE FUEL USE: Increase alternative fuel consumption at least 10% annually.

ENERGY EFFICIENCY: Reduce energy intensity by 3% annually through 2015 or by 30% by 2015.

GREENHOUSE GASES: By reducing energy intensity by 3% annually or 30% by 2015, reduce
greenhouse gas emissions.

RENEWABLE POWER: At least 50% of current renewable energy purchases must come from new
renewable sources (in service after January 1, 1999).

BUILDING PERFORMANCE: Construct or renovate buildings in accordance with sustainability
strategies, including resource conservation, reduction, and use; and indoor environmental quality.



                                                                                                     25
Appendix V: Federal and Industry Guidance (continued)

Executive Order 13423 (continued)

WATER CONSERVATION: Reduce water consumption intensity by 2% annually through 2015.

PROCUREMENT: Expand purchases of environmentally-sound goods and services, including biobased products.

POLLUTION PREVENTION: Reduce use of chemicals and toxic materials and purchase lower risk chemicals and toxic
materials from top priority list.

ELECTRONICS MANAGEMENT: Annually, 95% of electronic products purchased must meet Electronic Product
Environmental Assessment Tool standards where applicable; enable ENERGY STAR features on 100% of computers
and monitors; and reuse, donate, sell, or recycle 100% of electronic products using environmentally sound
management practices.

ENVIRONMENTAL MANAGEMENT SYSTEMS (EMS): Implement EMS at all appropriate organizational levels to
ensure use of EMS as the primary management approach for addressing environmental aspects of internal agency
operations and activities.

Executive Order 13423 consolidated and strengthened five executive orders and two memorandums of understanding
and established new and updated goals, practices, and reporting requirements for environmental, energy, and
transportation performance and accountability.

Source: Office of the Federal Environmental Executive (OFEE) - http://ofee.gov/eo/eo13423_main.asp


                                                                                                                 26
Appendix VI: Glossary

 • Distributed Resource Scheduler – The continuous monitoring of energy utilization across
   resource pools and the intelligent allocation of available energy resources among the virtual
   machines based on pre-defined rules that reflect business needs and changing priorities. When
   virtual machine resources are constrained, additional capacity is made available by migrating
   live virtual machines to a different physical server using VMware’s VMotion.

 • Energy Management Evaluation – The review of a corporation’s efforts to conserve energy in
   an effort to identify opportunities to further conserve energy and/or reduce utilities cost.

 • EO 13423 – Executive Order 13423 provides mandates for strengthening federal environmental,
   energy, and transportation management for Federal agencies, which are executive agencies as
   defined in section 105 of title 5, United States Code, excluding the Government Accountability
   Office.

 • EPEAT - Green Electronics Council offers the Electronic Products Environmental Assessment
   Tool (EPEAT) to assist in the purchase of "green" computing systems. The Council evaluates
   computing equipment on 28 criteria that measure a product's efficiency and sustainability
   attributes. On January 24, 2007, President George W. Bush issued Executive Order 13423,
   which requires all United States Federal agencies to use EPEAT when purchasing computer
   systems.

 • GPF – Gallons per flush—the unit of measure for water utilized within urinals and or toilets.
                                                                                                    27
Appendix VI: Glossary (continued)

 • Green Roof - A roof of a building that is partially or completely covered with vegetation and soil, or
   a growing medium, planted over a waterproofing membrane, or a roof that utilizes some form of
   "green" technology, such as solar panels or a photovoltaic module, to reduce the “heat island”
   effect of buildings.

 • HVAC – Acronym used for Heating, Ventilating, and Air Conditioning.

 • Key Performance Indicator (KPI) – Financial and non-financial metrics used to help an
   organization define and measure progress toward organizational goals.

 • LEED - The Leadership in Energy and Environmental Design (LEED) Green Building Rating
   System, developed by the U.S. Green Building Council (USGBC), provides a suite of standards for
   environmentally sustainable construction. Since its inception in 1998, LEED has grown to
   encompass over 14,000 projects in 50 states and 30 countries covering 1.062 billion square feet
   (99 km²) of development area. The hallmark of LEED is that it is an open and transparent process
   where the technical criteria proposed by the LEED committees are publicly reviewed for approval
   by the more than 10,000 membership organizations that currently constitute the USGBC.




                                                                                                            28
Appendix VI: Glossary (continued)

 • Renewables - Renewable energy effectively uses natural resources such as sunlight, wind, rain,
   tides, and geothermal heat, which may be naturally replenished. Renewable energy
   technologies include solar power, wind power, hydroelectricity/micro hydro, and biomass and
   biofuels for transportation.

 • Sustainability – Sustainable development marries two important themes: that environmental
   protection does not preclude economic development and that economic development must be
   ecologically viable now and in the long run. Common use of the term "sustainability" began with
   the 1987 publication of the World Commission on Environment and Development report, Our
   Common Future. Also known as the Brundtland Report, this document defined sustainable
   development as "development that meets the needs of the present without compromising the
   ability of future generations to meet their own needs." This concept of sustainability
   encompasses ideas, aspirations, and values that continue to inspire public and private
   organizations to become better stewards of the environment and that promote positive economic
   growth and social objectives. The principles of sustainability can stimulate technological
   innovation, advance competitiveness, and improve our quality of life.

 • WaterSense (EPA) – WaterSense is a U.S. Environmental Protection Agency program
   designed to encourage water efficiency in the United States through the use of a special label on
   consumer products. It was launched in June 2006.



                                                                                                       29
Appendix VII: Bibliography

• 80plus.
  http://www.80plus.org
• Alliant Energy.
  http://www.alliantenergy.com/docs/groups/public/documents/pub/p010793.hcsp
• ASHRAE Standard 90.1-2001.
  http://www.ashrae.org/publications/
• Cabling Installation & Maintenance. Hot-air isolation cools high-density data centers.
  http://www.chatsworth.com/uploadedFiles/Files/CIM_0907_THERMAL_ART.pdf
• Datacenter Knowledge. Data Center Cooling Points Debated
  http://www.datacenterknowledge.com/archives/2007/Sep/24/data_center_cooling_set_points_debate
  d.html
• Earth Lab. Carbon Calculations.
  http://www.earthlab.com/carbonProfile/LiveEarth.htm
• Energy Star.
  http://www.energystar.gov
• Energy Star. Purchasing & Procurement.
  http://www.energystar.gov/index.cfm?c=bulk_purchasing.bus_purchasing
• Environmental Protection Agency (EPA). Climate Change – What You Can Do.
  http://yosemite.epa.gov/gw/statepolicyactions.nsf/uniqueKeyLookup/MSTY5Q4KJ4?OpenDocument



                                                                                                  30
Appendix VII: Bibliography (continued)

• EPA – Environmentally Preferable Purchasing (EPP).
  http://yosemite1.epa.gov/oppt/eppstand2.nsf
• Green Grid, The. Guidelines for Energy-Efficient Datacenters.
  http://www.thegreengrid.org/gg_content/Green_Grid_Guidelines_WP.pdf
• InformationWeek.
  http://www.informationweek.com/
• OFEE. Green Purchasing
  http://www.ofee.gov/gp/gp.asp
• Office of the Federal Environmental Executive (OFEE).
  http://ofee.gov/eo/eo13423_main.asp
• US Army. US Army Knowledge Online (AKO) Change Management Guidance Document.
  http://www.army.mil/
• US DOE. Office of Energy Efficiency and Renewable Energy (EERE).
  http://www.eere.energy.gov/buildings/highperformance/
• US DOE. Office of EERE – Federal Energy Management Program (FEMP)
  http://www1.eere.energy.gov/femp/index.html
• US DOE. FEMP Energy Cost Calculators
  http://www1.eere.energy.gov/femp/procurement/eep_eccalculators.html




                                                                                 31
Appendix VII: Bibliography (continued)

• US DOE. FEMP - Operations & Maintenance
  http://www1.eere.energy.gov/femp/operations_maintenance/index.html
• US DOE. FEMP – Operations & Maintenance Strategies
  http://www1.eere.energy.gov/femp/operations_maintenance/om_strategies.html
• US DOE. FEMP Sustainable Design & Operations
  http://www1.eere.energy.gov/femp/sustainable/sustainable_fedrequire.html
• US Green Building Council (USGBC).
  http://www.usgbc.org/DisplayPage.aspx?CMSPageID=221
• Whole Building Design Guide (WBDG). Optimize Energy Use
  http://www.wbdg.org/design/minimize_consumption.php
• WBDG. Sustainable Federal Buildings Database
  http://www.wbdg.org/tools/sfbd.php?a=1




                                                                               32
Appendix VIII – Corporation Comments




                                       0
Appendix VIII – Corporation Comments (continued)




                                                   34
Appendix IX – Management Response to Recommendations


 This table presents the management response on the recommendations in our report and the status of the recommendations as of the date of
 report issuance.

   Rec.                                                                           Expected            Monetary       Resolved:a        Open or
  Number               Corrective Action: Taken or Planned/Status              Completion Date        Benefits       Yes or No         Closedb
     1      DOA concurred with the recommendation and is working on
            developing plans to address the recommendations made by              December 31,            $0             Yes             Open
            KPMG LLP (KPMG) under a broader initiative to achieve                   2008
            certification under the U.S. Green Building Council’s Leadership
            in Energy and Environmental Design (LEED) green building
            program. Currently, DOA is pursuing LEED certification at the
            Silver Level with the assistance of two contractors. DOA will
            garner support of senior managers at headquarters and
            throughout the Corporation in order to effectively implement
            these initiatives.


     2      DOA stated that it plans to fully explore upgrading or replacing
            building energy management systems during the LEED analysis          December 31,            $0             Yes             Open
            and certification process. DOA concurred in part with this           2008 (energy
            recommendation, stating that adopting sub-metering will play a       management
            critical role in FDIC obtaining LEED certification.                    systems)

                                                                                 June 30, 2009
                                                                                 (sub-metering
                                                                                  capabilities.




                                                                                                                                                 35
Appendix IX – Management Response to
Recommendations (continued)


      Rec.                      Corrective Action: Taken or Planned                          Expected              Monetary        Resolved:a        Open or
     Number                                                                               Completion Date          Benefits        Yes or No         Closedb
           3        DOA concurred with the recommendation and is
                    contemplating utilizing a wide range of communication tools,         December 31, 2008             $0              Yes            Open
                    including the internet, e-mail messages, the FDIC News, and
                    the existing Customer Advisory Meetings as means to convey
                    the green and “sustainable” initiatives, and solicit input.


           4        DOA is pursuing LEED certification and, as part of this
                    process, will look at fine tuning and enhancing existing             December 31, 2008             $0              Yes            Open
                    equipment and systems and develop an action plan
                    accordingly. Slides 11 and 12 of the OIG’s report will be
                    considered as part of this process.


           5        DOA concurred with the recommendation and stated that an
                    action plan will be developed by the end of the year to address      December 31, 2008             $0              Yes            Open
                    any changes/improvements to FDIC facilities as appropriate.


 a
     Resolved: (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
               management provides an amount.
     b
         Once the OIG determines that the agreed-upon corrective actions have been completed and are responsive to the recommendations, the recommendations can
         be closed.




                                                                                                                                                                    36
